Audit of Conference-Related

  Activities and Expenses



OIG Audit Report No. 14-09



       May 1, 2014

                                                                             OIG Audit Report No. 14-09



Table of Contents


Executive Summary ........................................................................................ 3


Background ..................................................................................................... 5


Objectives, Scope, Methodology .................................................................... 7


Audit Results................................................................................................... 8


Appendix A – NARA Conferences Selected for Review............................. 14


Appendix B – Acronyms and Abbreviations................................................ 16


Appendix C – Management’s Response to the Report................................. 17


Appendix D – Report Distribution List ........................................................ 18

                                                                        OIG Audit Report No. 14-09


Executive Summary

The National Archives and Records Administration (NARA) sponsors and co-sponsors
conferences to support NARA’s vision that all Americans will understand the vital role
records play in a democracy. Since 2011, the Office of Management and Budget (OMB)
has issued guidance to help agencies eliminate excessive conference spending. OMB
Memorandum 11-35, Eliminating Excess Conference Spending and Promoting Efficiency
in Government, directed agencies to conduct a thorough review of the policies and
controls associated with conference-related activities and expenses. OMB Memorandum
12-12, Promoting Efficient Spending to Support Agency Operations, directed agencies to
reduce spending on conferences where practicable by implementing specific policies
outlined in the directive.

NARA’s Office of Inspector General (OIG) performed an audit of NARA’s conference
activities and expenses. Our objective was to evaluate (1) internal controls over NARA
funded conference 1 related spending, and (2) the reasonableness of conference expenses.
We determined NARA’s conference guidance addresses, and in some cases exceeds,
OMB directives on conferences. We also determined NARA has taken initiative to
reduce conference expenses. For example, the agency moved the annual genealogy fair
from onsite to online in September 2013. The online fair saw an increase in attendance
and a reduction in costs. Additionally in August 2013, Agency Services hosted the
Federal Records Centers Operations Conference via videoconference. The five day
conference consisted of various daily presentations lasting four and a half hours.

However, in this audit we found NARA could have realized $193,942 in funds to better
use had stronger internal controls over conference-related activities and expenses been
implemented. Specifically, we found the Accounting Policy and Operations Branch
(BCA) was not effectively monitoring conference-related activities and expenses. We
identified instances where approval was not obtained for conferences. By not obtaining
approval, offices expended unauthorized funds. Additionally, we found NARA policies
need to be updated to reflect the law, and to include a process to review expenses after a
conference has ended.




1
  Conference is defined in this report as it is in the Federal Travel Regulation (41 CFR 300-3.1), as: “A
meeting, retreat, seminar, symposium, or event that involves attendee travel. The term “conference” also
applies to training activities considered to be conferences under 5 CFR 410.404.” Meeting refers to any
meeting, retreat seminar, symposium or event requiring expenditure of funds, including Federal employee
time and regardless of whether travel is required.
                                               3
                         National Archives and Records Administration
                                                          OIG Audit Report No. 14-09


This report contains three recommendations which upon implementation will assist
NARA in effectively monitoring conferences expenses.




                                          4
                    National Archives and Records Administration
                                                                     OIG Audit Report No. 14-09


Background

Federal Travel Regulation (FTR) 301-74, “Conference Planning,” outlines agency
responsibilities for conferences, including (a) minimizing all conference costs, including
administrative costs, conference attendees’ travel costs, and conference attendees’ time
costs; (b) maximizing the use of Government-owned or Government provided conference
facilities as much as possible; (c) identifying opportunities to reduce costs in selecting a
particular conference location and facility (e.g., through the availability of lower rates
during the off-season at a site with seasonal rates); (d) ensuring the conference planner or
designee does not retain for personal use any promotional benefits or materials received
from a travel service provider as a result of booking the conference; and (e) develop and
establish internal policies to ensure these standards are met.

The Office of Management and Budget’s (OMB) Memorandum 11-35, Eliminating
Excess Conference Spending and Promoting Efficiency in Government, directed all
agencies and departments to conduct a thorough review of the policies and controls
associated with conference-related activities and expenses. In May 2012, OMB issued
Memorandum 12-12, Promoting Efficient Spending to Support Agency Operations. The
Memorandum described a series of policies and practices related to activities and
expenses in travel, conference expenditures, real estate, and fleet management. It
outlined a series of new policies and practices for conference sponsorship, hosting, and
attendance to ensure Federal funds are used appropriately on these activities, and that
agencies continue to reduce spending on conferences where practicable. OMB
Memorandum 13-05, Agency Responsibilities for Implementation of Potential Joint
Committee Sequestration (issued February 2013), directed Federal agencies to apply
increased scrutiny to new spending for conferences, and ensure that conference-related
spending occurs only to the extent it is the most cost-effective way to maintain critical
operations under sequestration.

In September 2012 NARA reissued 2 NARA 165-1, Conference-Related Activities and
Expenses, to address OMB Memorandum 12-12. The interim guidance establishes
policies and controls to mitigate the risk of inappropriate spending practices with regard
to meetings and conferences sponsored or co-sponsored by NARA.




2
    It was previously based on OMB Memorandum 11-35 and issued on October 27, 2011.
                                                5
                          National Archives and Records Administration
                                                               OIG Audit Report No. 14-09


Section 3003 of the Consolidated and Further Continuing Appropriations Act of 2013
requires the head of any Executive branch department, agency, board, commission, or
office funded by this or any other appropriations Act to submit annual reports to their
Inspector General, regarding the costs and contracting procedures related to each
conference they held during fiscal year 2013 for which the cost to the United States
Government was more than $100,000. It also requires within 15 days of the date of such
for which the cost to the United States Government was more than $20,000, the head of
any such department, agency, board, commission, or office shall notify their Inspector
General (or senior ethics official for any entity without an Inspector General), of the date,
location, and number of employees attending such conference.

The Accounting Policy and Operations Branch (1) establishes policies governing
financial management activities and operations, evaluates financial management
processes, and provides guidance concerning financial and accounting procedures; (2)
manages, administers, and coordinates NARA financial management functions; works
closely with NARA program offices to ensure timely and accurate processing of
obligation documents, acknowledgment of receipt and acceptance of goods and services,
and payment of invoices; analyzes accounting data for accuracy, maintains internal
controls for financial management processes, and manages financial review processes;
and (3) manages the NARA travel program: establishes policies governing travel and
government travel cards; provides guidance concerning travel management policies and
procedures; works closely with NARA program offices to ensure timely and accurate
processing of travel authorizations and vouchers; analyzes travel data for accuracy and
maintains internal controls for travel management processes; manages financial review
processes for the travel card program; and serves as liaison with the travel management
system provider.




                                            6
                      National Archives and Records Administration
                                                              OIG Audit Report No. 14-09


Objectives, Scope, Methodology

The objectives of this audit were to evaluate (1) internal controls over NARA funded
conference-related spending, and (2) the reasonableness of conference expenses.
Specifically, our audit focused on whether conference expense controls mandated by
OMB and Congress were adequately implemented by NARA. To understand the
requirements for conference expenses, we reviewed (a) NARA 165-1, Conference-
Related Activities and Expenses; (b) NARA Notice 2013-106, New Policies for Cash
Awards, Travel, Conferences, and Hiring Under Sequestration, (c) OMB
Memorandum 11-35, Eliminating Excess Conference Spending and Promoting
Efficiency in Government, (d) OMB Memorandum 12-12, Promoting Efficient
Spending to Support Agency Operations, (e) OMB Memorandum 13-05, Agency
Responsibilities for Implementation of Potential Joint Committee Sequestration, and
(f) Public Law 113-6: Consolidated and Further Continuing Appropriations Act,
2013.

To accomplish our objectives we did the following:
   •	 Reviewed NARA’s policies against requirements set forth in OMB directives and
       the law.
   •	 Obtained a list of NARA conferences held during the testing period (October 1,
       2011 through June 30, 2013) and evaluated its completeness.
   •	 Obtained data on conferences activities and funds expended from NARA offices.
   •	 Reviewed travel vouchers in GovTrip.
   •	 Evaluated controls over conference activities.
   •	 Held discussions with personnel from the Office of the Archivist (N) and

       Accounting Policy and Operations (BCA).


This audit was conducted in accordance with generally accepted government auditing
standards between June 2013 and February 2014. These standards require we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                           7
                     National Archives and Records Administration
                                                                     OIG Audit Report No. 14-09


Audit Results


Stronger Internal Controls Needed for Conference-Related
Activities and Expenses

The Accounting Policy and Operations Branch (BCA) is responsible for establishing
policies governing conference-related activities and expenses, and managing the approval
process. However, we found BCA was not effectively monitoring conference-related
activities and expenses. Specifically, we found (1) BCA was not aware of all conferences
held, (2) conferences were held without authorization, (3) the OIG was not always
notified when conference expenses were over $20,000, and (4) there was no mechanism
in place to review approved conference expenses after conferences occurred. This
occurred because management did not have policies and procedures in place to
adequately monitor conference activities or expenses. As a result, conference activities
and expenses could be unnecessary and appear frivolous or wasteful.

Interim Guidance NARA 165-1, Conference-Related Activities and Expenses (dated
September 12, 2012), establishes policies and controls to mitigate the risk of
inappropriate spending practices with regard to meetings and conferences sponsored or
co-sponsored by NARA. It applies to appropriations for NARA Operating Expenses, the
Records Center Revolving Fund, and the National Archives Trust and Gift Funds. Under
the policy any NARA conference requiring the expenditure of Federal funds must be
approved in advance by Deputy Archivist and concurred by the Chief Financial Officer
(CFO) and Office of General Counsel via NA Form 4015, Conference Approval Request
Form. 3 The form is required if a conference is (a) a NARA-sponsored or co-sponsored
event identified or advertised as a conference, workshop, or similar program; or (b)
meeting of ten or more NARA employees requiring travel or will be held in a non-
Federal facility. The form includes conference details, estimated conference costs, and a
justification for the conference.




3
    NA Form 4015, Conference Approval Request Form, became effective October 27, 2011.
                                                8
                          National Archives and Records Administration
                                                                        OIG Audit Report No. 14-09


BCA was not aware of all conference-related activities

During the course of our audit, we requested NARA offices submit data on conferences
sponsored or co-sponsored by NARA from October 1, 2011 through June 30, 2013.
Based on Conference Approval Request Forms submitted and approved, 17 conferences
were held during our testing period. However, we received data showing 17 additional
conferences took place over what was documented as approved (see Table 1). When we
tried to determine why conferences were not submitted for approval, offices indicated (1)
the conference was scheduled prior to issuance of Interim Guidance NARA 165-1,
Conference-Related Activities and Expenses, (2) the policy was not in effect at the time,
(3) it was unknown if the conference was pre-approved, (4) there was no form at the time,
or (5) they were not sure what the process was for approval at the time of the conference,
but it was approved by the Archivist.

Table 1: Conferences Reported – BCA vs. OIG
                                  FY 2012                                     FY 2013
                           # of       Approved/Actual                # of        Approved/Actual
 Reported to            Conferences       Expenses 4              Conferences        Expenses
BCA                         10            $336,711                     7               $61,627
OIG                         23            $462,084                    11              $100,933

Conferences held without authorization

Based on data reported to our office, we reviewed 14 conferences to determine if they
adhered to conference policies outlined by OMB, NARA, and FTR (see list of
conferences reviewed in Appendix A). Of those tested, we found (1) one instance where
the Conference Request Approval Forms was missing the signature of the Deputy
Archivist, (2) one instance where the Conference Request Approval Forms was missing
the signatures of the Deputy Archivist and General Counsel, and (3) seven instances
where conferences were held without submission and approval of Conference Approval
Request Forms. Four of those conferences held without approval were also not held in
federal facilities:




4
    Approved and actual expenses were reported by BCA and to the OIG, respectively.
                                                 9
                           National Archives and Records Administration
                                                                OIG Audit Report No. 14-09


Harry S. Truman Library - Three conferences sponsored or co-sponsored by the Harry
S. Truman Library were held at non-federal facilities. None of the conferences were
authorized. The Case Studies of the Cold War: A Course for Teachers & Lecturers in
Europe was held in April 2012 at University of Utrecht, the Netherlands in Utrecht,
Holland. The purpose of the course was to pilot a five-day course for secondary school
teachers, PhD Students and (junior) university lecturers. The course was funded by the
National Archives Trust Fund (NATF), and advertised as being heavily subsidized by the
Truman Library.

In 2012 and 2013 the Truman Legacy Symposiums were held at the Harry S. Truman
Little White House in Key West, Florida. The Symposiums have taken place since 2003
in Key West, Florida. The 2012 Symposium examined the foreign aid policies and
legacy of the 33rd president. The 2013 Symposium focused on the reorganization of the
nation’s military during Truman’s administration, specifically the creation of the
Department of Defense, the Joint Chief of Staff, and the Central Intelligence Agency.
Both Symposiums were paid by NATF.

Library officials indicated they were not aware of the requirement to complete
Conference Request Approval Forms for conferences in 2012. They also indicated a
form was completed in 2013, but the Deputy Archivist did not sign-off on the
Conference. Library officials’ rationale was “the Deputy Archivist did not sign-off on
the Conference, but understood to cancel NARA participation at what had become a late
date could reflect badly on the Agency.” By the date of the May 2013 conference, the
policy requiring approvals was 18 months old. If the Library was unaware, the Executive
for Legislative Archives, Presidential Libraries, and Museum Services, who is
responsible for the Library’s budget, should have been aware of the Deputy Archivist’s
increased scrutiny to all meetings and conferences during sequestration.

Interim Guidance 165-1, Conference-Related Activities and Expenses, requires all
meetings and conferences be held in a Federal facility, except where: (i) the sponsoring
NARA organization can demonstrate that using an alternative non-Federal facility will
result in a lower cost; or (ii) where there is a business need to use a non-Federal facility.
NARA Notice 2013-106, New Policies for Cash Awards, Travel. Conferences, and
Hiring Under Sequestration, states meetings and conferences would only be approved
only to the extent they meet one or more of the following criteria: (1) the meeting or
conference is necessary to maintain critical agency mission operations under
sequestration; (2) the meeting or conference would not appear frivolous or wasteful in a
period of austerity and would not portray NARA in a negative light when compared to
actions other agencies have taken to meet sequestration cuts; and (3) the meeting or
conference is necessary to fulfill statutory or regulatory requirements.
                                           10
                      National Archives and Records Administration
                                                            OIG Audit Report No. 14-09



Agency Services - Customer Relations Management/Scanwow! (Business
Development/CRM) Conference for the Federal Records Center Program (FRCP) was
held by Agency Services in December 2011, at the Laguna Cliffs Marriott Resort & Spa
in Dana Point, California. The conference was an annual planning meeting which was
usually held in different parts of the country near a FRCP to ease the burden of local
arrangements, and distribute the burden to different FRCP managers. We reviewed
documentation for the conference, including the 31 attendees, and found:

   •	 Conference approval was not obtained for the conference. The original version of
      Interim Guidance 165-1, Conference-Related Activities and Expenses (dated
      October 27, 2011), required conferences less than 90 days from issuance to
      submit Form NA 4015 for all required approvals and signatures before the
      conference occurred and before incurring any additional obligations, including
      travel. The Contracting Officer was aware of the guidance before issuance, but
      indicated attempts to get a form with approvals were declined before issuance of
      the guidance. However, once the guidance was issued and before any additional
      payments or contract amendments, no effort was made by Agency Services to
      obtain the appropriate approvals.
   •	 The rationale for selecting the Dana Point area for the conference was
      unreasonable when majority (80%) of the expenses were for traveling and 15
      (55%) of the attendees duty stations were located on the East Coast (2 –
      Pennsylvania and 13 – Maryland). We were told no consideration was given to
      holding the meeting at a FRCP facility due to (1) extra logistics involved in
      transporting staff from the hotel to a FRCP facility and (2) many FRCP facilities
      not being able to comfortably accommodate the number of meeting participants.
      Also, cost comparisons were obtained from other Dana Point hotels (the St. Regis
      Monarch Beach and Ritz Carlton) which did not offer the government per diem
      rate.
   •	 Attendees received per diem for three days of breakfast even though a continental
      breakfast ($29/day) was paid for as a part of the conference package with the
      hotel; and
   •	 One attendee stayed at the resort, but their residence in Oceanside, California was
      35 miles from the conference site.




                                         11
                    National Archives and Records Administration
                                                                      OIG Audit Report No. 14-09


FTR §301-74.4 indicates cost comparisons should include, but not be limited to, a
determination of adequacy of lodging rooms at the established per diem rates, overall
convenience of the conference location, fees, availability of meeting space, equipment,
and supplies, and commuting or travel distance of attendees. FTR §301-74.21 requires
conference attendees to make the appropriate deduction from the meals and incidentals
rate when meals are furnished by the government.

OIG was not notified of conference expenses over $20,000

The Consolidated and Further Continuing Appropriations Act of 2013 requires within 15
days of the date of a conference held by any Executive branch department, agency, board,
commission, or office funded by this or any other appropriations Act during fiscal year
2013 for which the cost to the United States Government was more than $20,000, the
head of any such department, agency, board, commission, or office shall notify their
Inspector General (or senior ethics official for any entity without an Inspector General),
of the date, location, and number of employees attending such conference. In April 2013,
NARA’s CFO communicated to management for the head of any NARA organization
sponsoring a conference or event costing excess of $20,000 (including costs to other
Federal agencies) to notify the OIG within 15 days after the event.

Based on our review, there were two conferences in FY 2013 that met the $20,000
criteria. The 2013 Truman Legacy Symposium and George W. Bush Library Dedication
had expenses totaling $21,232 and $24,571, respectively. While our office received
notification about the George W. Bush Library Dedication, we were not made aware of
the expenses for the Truman Legacy Symposium.

No mechanisms in place to review approved conference expenses after conferences
occurred

Our review also found there was no process in place to review conference expenses after
conferences occurred. While offices are required to submit estimated expenses when
completing the Conference Request Approval Form, there is no independent review
performed of actual expenses after the conference ended. We identified one instance
where estimated approved expenses exceeded actual expenses. The Bi-Annual Facility
Manager (FM)/Field Support Officer (FSO) Conference was submitted for approval 5 for
$26,487, but expenses totaled $37,769. Since many of the conferences occurred without
approval, we were unable to determine if approved budgets were exceeded.



5
  The form provided to the OIG during fieldwork was not approved by the Deputy Archivist. Prior to
issuance of the final report, a form with the signature was provided.
                                             12
                        National Archives and Records Administration
                                                             OIG Audit Report No. 14-09


Unauthorized conference activities and expenses during a time of economic scrutiny
shows offices disregard for established policies. In the absence of proper internal
controls to monitor the conferences, there is no assurance funds are used appropriately
and in a cost effective manner.

Recommendations

1.	 The Deputy Archivist should ensure a process is developed to strategically plan
    conferences at the senior management level based on the mission, vision, and budget
    resources of the agency.

2.	 The Chief Financial Officer should ensure:

   a)	 Communication is provided to offices regarding adherence to conference policies,
       including penalties for non-compliance.
   b)	 Interim Guidance 165-1, Conference-Related Activities and Expenses, is updated
       to incorporate statutory requirements for reporting to the OIG any conferences
       where expenses exceed $20,000.
   c)	 Methodology is developed for gathering and reporting post conference details,
       including detail of all expenses and justification when total costs increase by a
       threshold established by management. Establish a timeframe for reporting.

3.	 The General Counsel with the assistance of the Chief Financial Officer should make a
    determination of whether any employees and officials who were responsible for
    approving or certifying purchases and their supervisors should be held responsible for
    government funds spent on unapproved conferences taking place after issuance of
    Interim Guidance 165-1, Conference-Related Activities and Expenses (dated
    September 12, 2012).

Management Response

Management concurred with the recommendations.




                                          13
                     National Archives and Records Administration
                                                                                                                             OIG Audit Report No. 14-09




Appendix A – NARA Conferences Selected for Review


                                                                                                                                  Total
                  Conference Name                              Conference Dates                      Location                                     Approved
                                                                                                                                Expenses 6
1. Presidential Library Director Meeting (PLDM),            December 1-2, 2011            Nixon & Reagan Libraries
   Advisory Committee on Presidential Library-                                            Yorba Linda & Simi Valley,              $32,279             NO
   Foundation Partnerships (ACPLFP)                                                       CA
2. Customer Relations Management/Scanwow!                   December 12–16, 2011          Laguna Cliffs Marriott Resort*
                                                                                                                                  $52,719             NO
   Conference for the FRCP                                                                Dana Point, CA
3. Administrative Officer Conference and HR                 January 23–27, 2012           Archives II
                                                                                                                                  $61,569            YES
   Migration Training                                                                     College Park, MD
4. FRCP Transfer & Disposition Conference                   April 24-27, 2012             Ellenwood FRC
                                                                                                                                  $28,635             NO
                                                                                          Ellenwood, GA
5. Bi Annual FM/FSO Conference                              April 29–May 4, 2012          Reagan Library
                                                                                                                                  $37,769            NO 7
                                                                                          Simi Valley, CA
6. The Cold War - Causes and Consequences                   April 18-22, 2012             University of Utrecht*
                                                                                                                                  $20,243             NO
                                                                                          Utrecht, Holland
7. Truman Legacy Symposium                                  May 18-19, 2012               Truman Little White House*
                                                                                                                                  $16,719             NO
                                                                                          Key West, FL
8. PLDM, Presidential Library Director Council              May 31–June 1, 2012           Archives I
                                                                                                                                  $21,871            YES
   Meeting (PLDC), ACPLFP                                                                 Washington, DC
*Held at non-federal facilities

6
 Total expenses are based on figures reported to or calculated by the OIG.

7
 The form provided to the OIG during fieldwork was not approved by the Deputy Archivist. Prior to issuance of the final report, a form with the signature was

provided.


                                                                         14
                                                    National Archives and Records Administration
                                                                                                                             OIG Audit Report No. 14-09



                                                                                                                                 Total
                  Conference Name                              Conference Dates                      Location                                     Approved
                                                                                                                                Expenses
9. National Level Continuity Exercise - Eagle              June 18–22, 2012              NARA Continuity Facility
                                                                                                                                 $33,989             YES
    Horizon 2012                                                                         Rocket Center, WV
10. PLDM, PLDC, ACPLFP                                     November 28-29, 2012          Archives I
                                                                                                                                 $19,331              NO
                                                                                         Washington, DC
11. FRCP Director Conference                               September 17–21, 2012         National Personnel Records
                                                                                         Center                                  $36,826             YES
                                                                                         St. Louis, MO
12. Office of Presidential Libraries Digitization          September 26-27, 2012         Truman Library
                                                                                                                                 $26,976             NO 8
    Conference                                                                           Independence, MO
13. George W. Bush Library Dedication                      April 24-26, 2013             George W. Bush Library
                                                                                                                                 $24,571             YES
                                                                                         Dallas, TX
14. Truman Legacy Symposium                                May 17-18, 2013               Truman Little White House*
                                                                                                                                 $21,232              NO
                                                                                         Key West, FL
*Held at non-federal facilities




8
  The form provided to the OIG during fieldwork was not approved by the Deputy Archivist or General Counsel. Prior to issuance of the final report, a form with
the signatures was provided.

                                                                         15
                                                    National Archives and Records Administration
                                                    OIG Audit Report No. 14-09




Appendix B – Acronyms and Abbreviations

ACPLFP   Advisory Committee on Presidential Library-Foundation Partnerships
AF       Federal Records Center Program
BCA      Accounting Policy and Operations Branch
CFO      Chief Financial Officer
CFR      Code of Federal Regulations
FM       Facility Manager
FRCP     Federal Records Center Program
FSO      Field Support Officer
FTR      Federal Travel Regulation
LP-HST   Harry S. Truman Library
N        Office of the Archivist
NARA     National Archives and Records Administration
NATF     National Archives Trust Fund
OIG      Office of Inspector General
OMB      Office of Management and Budget
PLDC     Presidential Library Director Council Meeting
PLDM     Presidential Library Director Meeting




                                    16
               National Archives and Records Administration
                                                                               OIG Audit Report No. 14-09 



Appendix C – Management’s Response to the Report





       NATIONAL
       ARCHIVES



                                   APR 17 2014
           Date:
           To:                 James Springs, Acting Inspector General
           From:               David S. Ferriero, Archivist of the United States
           Subject:            OIG Revised Draft Audit 14-09, Audit of Conference-Related Activities and
                               Expenses




     Thank you for the opportunity to provide comments on this revised draft report. We
     appreciate your willingness to meet and clarify language in the report.

     We concur with both recommendations in this audit, and we will address them further in
     our action plan.




     DAVIDS. FERRIERO
     Archivist of the United States




      NATIONAL ARCH IVES a11d
      IUCOROS ADM IN ISTRATION

         8601 AOr:l.l'll l ROAD
      COLLEGf. PARK. MD 20740-<KlOI
            www.ar( h;~.,s .go v




                                              17 

                         National Archives and Records Administration
                                                        OIG Audit Report No. 14-09


Appendix D – Report Distribution List

Archivist of the United States (N)

Deputy Archivist of the United States (ND)

Chief Operating Officer (C)

General Counsel (NGC)

Executive of Business Support Services (B)

Chief Financial Officer (BC)

Director, Performance and Accountability (CP)

Management Control Liaison, Performance and Accountability (CP)





                                        18
                   National Archives and Records Administration
